<html>
<title> - THE PRESIDENT'S BUDGET REQUEST FOR THE U.S. DEPARTMENT OF ENERGY FOR FISCAL YEAR 2019</title>
<body><pre>[Senate Hearing 115-510]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 115-510
 
                   THE PRESIDENT'S BUDGET REQUEST FOR
                     THE U.S. DEPARTMENT OF ENERGY
                          FOR FISCAL YEAR 2019

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 20, 2018

                               __________
                               
                               
                               
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                            
                               


                       Printed for the use of the
               Committee on Energy and Natural Resources
               
               

        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
                            ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 29-771               WASHINGTON : 2019
       
        
        
        
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
LAMAR ALEXANDER, Tennessee           MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
BILL CASSIDY, Louisiana              TAMMY DUCKWORTH, Illinois
ROB PORTMAN, Ohio                    CATHERINE CORTEZ MASTO, Nevada
SHELLEY MOORE CAPITO, West Virginia  TINA SMITH, Minnesota

                      Brian Hughes, Staff Director
                Patrick J. McCormick III, Chief Counsel
  Brianne Miller, Senior Professional Staff Member and Energy Policy 
                                Advisor
             Mary Louise Wagner, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
           Scott McKee, Democratic Professional Staff Member
           
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Cantwell, Hon. Maria, Ranking Member and a U.S. Senator from 
  Washington.....................................................     2

                                WITNESS

Perry, Hon. Rick, Secretary of Energy............................     4

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Cantwell, Hon. Maria:
    Opening Statement............................................     2
Cortez Masto, Hon. Catherine:
    Letter dated March 19, 2018, addressed to Secretary Rick 
      Perry......................................................    30
Heller, Hon. Dean:
    Letter for the Record........................................    22
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
Perry, Hon. Rick:
    Opening Statement............................................     4
    Written Testimony............................................     7
    Responses to Questions for the Record........................    51


                   THE PRESIDENT'S BUDGET REQUEST FOR

                     THE U.S. DEPARTMENT OF ENERGY

                          FOR FISCAL YEAR 2019

                              ----------                              


                        TUESDAY, MARCH 20, 2018

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good morning, everyone. The Committee will 
come to order.
    We are here today to discuss the President's budget request 
for the Department of Energy for Fiscal Year 2019.
    We welcome to the Committee, Secretary Rick Perry. It is 
good to have you back in front of us, and we look forward to 
your comments this morning.
    Like last year, the request emphasizes funding for the 
National Nuclear Security Administration, which falls outside 
of our jurisdiction. In addition, the President's budget 
requests additional funding for the environmental management 
program to clean up our nation's nuclear sites.
    I appreciate these proposals, but the request offsets them 
with cuts to a number of energy and science programs that enjoy 
strong bipartisan support. It also seeks to eliminate all 
funding for ARPA-E, which is a program that undertakes 
innovative, pioneering work.
    While we should always be looking for places to cut the 
budget, we should also recognize that innovation is critical to 
our nation's energy future. It creates jobs, it boosts growth, 
it adds to our security and it increases our competitiveness. 
We need to focus on maintaining our global leadership in 
science, research and development. And central to that mission 
are the hardworking scientists and engineers at our national 
laboratories and our universities.
    Now although I do not support all of the proposals in this 
request, I believe that we will find many areas of interest and 
agreement. I believe it is time to look at reforms that can 
reduce the stovepipes at the Department and make better use of 
taxpayer dollars. I am intrigued by the Department's decision 
to create a new cybersecurity office, and I look forward to 
seeing the remainder of the Department's budget justifications, 
which will need to be released as soon as possible.
    So again, Secretary Perry, I want to welcome you back 
before our Committee.
    I will note as all members have previously been alerted, 
that the Secretary has a hard stop at 11:30 so you can head to 
the White House. I understand that you will be taking up some, 
hopefully, nuclear-related discussions.
    We appreciate your time, so out of respect for our limited 
time with the Committee this morning, I will end my opening 
remarks here and simply note that I look forward to hosting 
you, Mr. Secretary, in Alaska in the near future.
    Senator Cantwell, good morning.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Madam Chair.
    The Department of Energy is a global leader in science and 
technology with an unrivaled network of national laboratories. 
It is also key to our national security.
    An important priority for DOE is energy infrastructure 
security. Our energy infrastructure is under attack. It is 
under cyberattack, and we need to do much more to protect it as 
a national critical asset.
    Russia has proven its ability to disrupt the grid and last 
week the Trump Administration announced new sanctions on Russia 
for attacks on the U.S. infrastructure. The Department of 
Homeland Security and the Federal Bureau of Investigation 
characterized the activities as, ``a multi-staged intrusion 
campaign by Russian government cyber actors who gained remote 
access into the energy sector networks.''
    The FBI and Department of Homeland Security state that 
since at least March 2016, Russia has targeted government 
entities in multiple U.S. critical infrastructure sectors, 
including our energy and nuclear sectors.
    A year ago, I called for a comprehensive assessment of 
cyberattacks to our grid by Russians, and I repeatedly asked 
the Trump Administration to tackle this urgent task and make 
sure that we have an assessment. If the FBI and Department of 
Homeland Security's recent admission is not a siren, then I 
don't know what is. I hope that the belated response is the 
first step in turning that around to being a robust response to 
protect our critical infrastructure.
    At a hearing last week, Mr. Secretary, you appeared with 
your colleagues in the Commerce Committee and said that you are 
not confident that the Federal Government has a broad strategy 
in place. Maybe we can elaborate and talk a little bit about 
that in the Q and A.
    But as we discussed at a hearing earlier this month, 
establishing a new DOE cyber office with marginal increases is 
not a substitute for the serious investment and meaningful 
action that we need. You told this Committee earlier this year 
that cyber is one of your key priorities, so I hope that we 
will see meaningful action from this Administration. We don't 
need rhetoric at this point, we need action.
    I want DOE and the Administration to be more aggressive, 
and I hope that we will get this assessment of where we are 
with our grid as a milestone to what we need to do moving 
forward. We do want to defend against what could be widespread 
blackouts and devastation to our economy and the other harmful 
security risks.
    You and I spent many hours at our national laboratory in 
the Northwest, at the Pacific Northwest National Laboratory 
(PNNL), discussing many of these issues, so I know you know 
this very well.
    On other budget issues, obviously the Department of Energy 
is a science and technology powerhouse. Yet, the President's 
proposed budget slashes many of DOE's essential programs, 
which, I think, would be devastating to our clean energy 
economy. It would kill science, innovation and DOE jobs by 
eliminating ARPA-E and making drastic cuts to energy 
efficiency, renewable energy and electricity and the budget 
would raise electricity rates in the Pacific Northwest by 
auctioning off federal utility assets. So I think these are, 
obviously, mistakes and I will ask questions about them.
    The budget would also undermine U.S. energy leadership and 
kill jobs. As the Chair noted at our Thursday hearing, for the 
first time, China is expected to surpass the U.S. in total R&D 
expenditures. And according to the International Energy Agency, 
more than $30 trillion will be invested globally in new, 
renewable energy facilities in energy efficiency between now 
and 2040.
    The cost of clean energy and energy efficiencies, like 
solar, LEDs and storage, have dropped between 41 percent and 94 
percent since 2008 and much of that was driven by the R&D of 
the Department of Energy. This is why we think this is so 
important to continue the science mission.
    The decreases in those technologies have helped consumers 
save money and have created jobs. Just in the energy efficiency 
and clean sector they have supported over three million U.S. 
jobs.
    So the success story is built on lots of DOE work through 
our national labs, like the Pacific Northwest National 
Laboratory in Richland, Washington, and through many other 
laboratories across the country.
    President Trump's budget also, I think, besides eliminating 
ARPA-E, the weatherization program, the state energy program 
which provide highly-leveraged, state-controlled funding to 
about 50 state projects, eliminates loan programs which 
leverage billions of dollars in energy infrastructure, 
Draconian cuts to the energy research, 65 percent for the 
energy efficiency and 59 percent for the electricity delivery 
system.
    I could go on, but I have to get to Hanford, Mr. Secretary. 
I am disappointed by the Administration's approach to the 
Hanford cleanup. The Trump Administration's proposal for FY'19 
cuts Hanford by $230 million from FY'17 enacted levels. Instead 
of the cut, Hanford needs an increase of $200 million in order 
to keep workers safe and meet milestones. And those budget cuts 
have been justified by saying, ``the decrease from 2017 enacted 
levels reflect the demolition of Plutonium Finishing Plant 
(PFP) to slab on grade.'' PFP is still standing and there is 
not even a date to resume demolition work at PFP, and rightly 
so. DOE and the contractors have to be able to protect the 
workers. As you and I saw firsthand when we visited again, we 
need to provide a safe work environment at Hanford. What are 
the technologies that we need to do that?
    I think the Administration's proposal comes up short. Under 
this budget, the Department would only be able to maintain 
status quo without making progress. As you well know, there is 
an agreement, milestones that have to be met. We will look 
forward to asking you questions about this in our Q and A.
    It is very important that we continue to make progress on 
the largest nuclear waste cleanup project in the world. It is 
thorny, it is challenging, but we need consistent investment.
    I trust you are not going over to Veteran's Affairs. I hope 
that you are staying right here and making sure that Hanford is 
cleaned up.
    Thank you, Mr. Secretary.
    The Chairman. Thank you, Senator Cantwell.
    Mr. Secretary, again, welcome.
    If you would like to provide your comments to the 
Committee, and then we will have an opportunity for our 
questions and your responses.
    Welcome.

       STATEMENT OF HON. RICK PERRY, SECRETARY OF ENERGY

    Secretary Perry. Chairman Murkowski, thank you for your 
hospitality, and Ranking Member Cantwell, it's an honor to get 
to be in front of this Committee and each of the members, thank 
you for your hospitality, your commitment to service to this 
country, today to discuss the President's Fiscal 2019 budget 
request for the Department of Energy.
    If I could, let me just say a quick thank you, Chairman and 
Ranking Member, for allowing me to be able to depart at 11:30 
today. I'll try to be brief and allow you the opportunity to 
ask the questions so that we can be productive today.
    Obviously, it is a great privilege for me. And Senator 
Cantwell, just FYI, I'll be here. I'm not going anywhere. It is 
an honor to serve as the 14th Secretary of Energy.
    Senator Cantwell. Well, you know my suggestion is that the 
Energy Secretary should be for life or until Hanford is cleaned 
up.
    [Laughter.]
    So I am happy to apply that to you. I have asked that of 
every other Secretary of Energy.
    Secretary Perry. Yes, ma'am. We'll take that under 
advisement.
    [Laughter.]
    Running this Department requires a significant expertise 
and that's one of the other things I wanted to thank you for is 
being able to get the nominees through this process in a very 
timely way, get them on the ground, and we've done that. I 
think we have, now, nine Presidential appointments with Senate 
confirmation that are on the ground and working and thank you 
for that assistance.
    This budget request underscores the DOE's commitment to 
stewardship, to accountability and to service that is 
respectful to the American taxpayer. I hope that our 
interactions with you and the other Congressional committees 
over the past year have underscored the commitment to service 
and to transparency.
    In total, the DOE leadership team appeared before 
Congressional committees 23 times in 2017, and we're proud of 
the strong relationship we built with Congress which brings me 
to a topic that I want to address before getting any into 
specifics.
    I am fully aware, and I'm very displeased, that some of 
this year's budget request documents were not released in a 
timely fashion. It's not how I operate and nor my staff for 
that matter. So let me just tell you that you all may be 
assured that we're going to continue to refine those processes 
and improve the transfer of information to you all.
    When I first appeared before this Committee last year, I 
committed DOE to advancing several key objectives. I know that 
we needed to modernize our nuclear weapons arsenal, continue to 
address the environmental legacy that the Cold War programs 
left us, further advance our domestic energy production, better 
protect our energy infrastructure and accelerate our exascale 
computing capacity. The FY2019 $30.6 billion budget request for 
the Department seeks to move us forward on these and other 
goals.
    Our greatest duty is to protect our citizens and nuclear 
deterrence is a core part of the DOE mission. This year we 
requested an 8.3 percent increase for that purpose to align 
ourselves with the President's nuclear posture review and the 
national security strategy.
    We're also focusing on addressing the environmental legacy 
left at Department sites which produce the materials that help 
us win a World War and to secure the peace. Last year we 
promised to focus on that obligation, and this year we're 
requesting additional funds to do so. I know the Department's 
Environmental Management Program is a high priority for this 
Committee, especially for those of you, like Ranking Member 
Cantwell, with a major project in her state. My visit to 
Hanford last year helped shape my commitment to that just 
cause.
    We also have a duty to advance a fundamental mission of our 
Department, and that's America energy independence. And thanks 
to U.S. ingenuity and innovation, we're on the cusp of 
realizing this mission objective for the first time since the 
1970s. In the coming years, we will produce enough energy from 
all of our abundant fuels, not only to meet our own needs, but 
our friends, our allies and our partners as well as we export 
to them. Just last year we became a net exporter of natural 
gas. Today we are exporting LNG to 27 nations on five 
continents. And because technology is also making our energy 
cleaner, we can pursue an all-of-the-above policy that will 
efficiently develop and use all of America's energy resources. 
Innovation can grow our economy and protect our environment.
    We drive further energy innovations, or I should say, to 
drive those energy innovations, we're requesting continued 
funding of our energy program offices, as well as funding for 
research in fossil fuels and nuclear power, including advanced 
modular reactors.
    Now, if we have a duty to advance domestic energy 
production, we also have a duty to ensure that our energy is 
delivered without interruption. That's why last year I promised 
to step up our efforts to protect and maintain America's energy 
infrastructure in the face of all hazards. The devastation 
caused by the 2017 hurricanes and the impact to the electricity 
sector highlighted the importance of improving grid reliability 
and resilience. This Committee has significant interest in our 
hurricane relief and restoration efforts and I thank you for 
your continued support there, but we also need to protect from 
manmade attacks, including cyberattacks.
    So this year we've requested funding increases to 
strengthen cybersecurity as well as the agency's cyber 
defenses. We're establishing a new Office of Cybersecurity, 
Energy Security, and Emergency Response. It's called CESER. 
It's going to be led by a new Assistant Secretary.
    Since much of our nation's greatest technology 
breakthroughs affecting energy have come through the work of 
our great national laboratories, we need to ensure their 
funding as well. I could speak extensively about some of the 
great work that they're doing, but today, I'll only mention 
two.
    Our effort to accelerate exascale computing systems in 
order to keep the U.S. at the forefront of super computing is 
extremely important; therefore, a 31 percent increase in that 
line item. This will have positive implications on everything 
from artificial intelligence to some of the great work we're 
doing to improve the health of our veterans.
    Chair Murkowski, in my first year I visited nine national 
labs with four more coming up the end of this month. I've also 
visited WIPP, the Nevada National Security Site, Pantex, Y-12, 
the Kansas City National Security Complex, McNary Dam and 
Hanford. And in a few weeks, I am looking forward to being in 
your home state and joining you there in Alaska.
    Wherever I go there's one thing that is made abundantly 
clear to me, those who work for the Department of Energy are 
dedicated, they're patriotic and they're committed to serving 
the American people. In the end, it is you, the people's 
elected representatives, who will decide how to best allocate 
the resources of our hard-working taxpayers.
    My commitment to each of you on this Committee is that we 
will do our best to use these resources wisely in the pursuit 
of the vital goals that I've outlined.
    I thank you and will do my best to answer your questions.
    [The prepared statement of Secretary Perry follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    The Chairman. Very good.
    Thank you, Mr. Secretary.
    Before I begin my questions, Senator Heller has asked that 
a letter that he has provided to the Committee, be included as 
part of the record. We will include that and you will see a 
copy of it as well, Mr. Secretary.
    [Senator Heller's letter follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    The Chairman. Senator Cantwell has mentioned in some detail 
here the cybersecurity issue and the joint alert from 
Department of Homeland Security and the FBI regarding Russian 
government cyber actors and how they have targeted critical 
infrastructure here in this country, including our electric and 
generation sources.
    Know that I share Senator Cantwell's concern on this. I 
want to make sure that DOE is cooperating with DHS and the FBI 
with implementation of actions in response to this, but also, 
to make sure that DOE is taking the lead as the Sector-Specific 
Agency.
    Mr. Secretary, you and I had a conversation yesterday just 
about making sure that DOE--which does have this legislatively 
designated authority as the lead in the Energy Sector when it 
comes to cyber--that continues.
    I would like you to speak specifically to that with regards 
to DOE's role, and then I have one more quick question for you.
    Secretary Perry. Yes, ma'am. Senator, thank you.
    Just we work very closely with the Department of Homeland 
Security. There's clear bifurcation, if you will, of our 
responsibilities. And certainly, the Department of Energy, we 
are the Sector-Specific Agency that partners with the Energy 
Sector to ensure infrastructure security and resilience and 
coordinate response and recovery.
    The CESER office that we make reference to that we're 
standing up here is our response to the clear challenges that 
the sector has relative to these, sometimes, non-state players 
or state players that are coming in and attacking NotPetya, 
that attack last year that the Russian government was involved 
with. There has been ransomware that's been stuck in. WannaCry 
was the codename for it that we've seen.
    The formation of CESER, this office, if you will, enhances 
the Department's role in the sector-specific agency for the 
Energy sector and it better positions the Department to address 
emerging threats and natural disasters and support the 
Department's expanded national security responsibilities. The 
reporting relationship to the Under Secretary of Energy will 
ensure the importance and the direct pipeline of information, 
if you will, back to the Secretary of Energy. I think this 
placement is very important to bridge the gap between science 
and technology development and the operators and implementers 
focused on securing our systems.
    So, there is a clear role that DOE plays on cyber. We are 
committed to being as technically advanced as possible, and 
it's the reason that we request the funding and the reason we 
have structured the agency, or not the agency but the 
Department as such, to clearly send a message that this is 
important and that we're going to fund it as such.
    The Chairman. Let me ask you, Mr. Secretary, the same 
question that I ask every other Cabinet member when they are in 
reporting to us on their budget, and this relates to the Arctic 
because this is an area, not just of interest to me, but really 
of interest around the world. My complaint or my fear has been 
that Administration after Administration fails to really 
appreciate the opportunities, the challenges, that the Arctic 
presents.
    And so, I ask the same question, effectively. What is 
contained in your budget request that is specific to Arctic-
related activity and how you view the Department's mission and 
role, effectively, in the Arctic?
    Secretary Perry. Senator, I think it's good news for you 
that I've been there before. I've been on the North Slope. I 
have visited that part of the state as an appropriator when I 
was in the Texas legislature and even before that, time spent 
in your state taking in the grandeur and the beauty and the 
diversity of that state.
    I think it's very important to have people with eyes on, 
situational awareness, if you will, of the state, of the needs.
    One of the reasons I'm going with you is I'm going to see 
some things I've never seen before, whether it's microgrids, 
the importance of microgrids or the chat or the conversation on 
the small modular reactors, is there a role that they could 
play in a state as diverse as thinly populated, if you will, as 
your state.
    The idea that a transmission system as we have in the 
continental 48 of the United States is going to work in Alaska 
is a myth. It can't. It's going to take some unique ways to 
address challenges that the Arctic has.
    We're committed to those, our national labs, the Office of 
Electricity. We're going to be working with you and commit to 
you to be very open to the innovation and the technology that 
can serve the people of Alaska in, hopefully, a way that 
they've never seen before.
    The Chairman. Well, I appreciate that.
    My time is up.
    I will just note, not only for you, Mr. Secretary, but for 
the other colleagues on the Committee that Alaska is hosting 
the National Lab Day at the end of May which will be an 
opportunity to not only have national labs understand what the 
Arctic holds but vice versa.
    So, thank you.
    Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chair.
    Mr. Secretary, on Hanford, the cleanup budget, you have 
made some assumptions about the Plutonium Finishing Plant that 
I actually think are off in this assessment of cutting $230 
million out of that. Will you go back and review those 
assessments as it relates to Plutonium Finishing Plant and live 
up to the tri-party agreement, make sure that as you are making 
this budget that you are going to live up to making the 
milestones in that agreement?
    Secretary Perry. Yes, ma'am. I think it's very important 
for us.
    As you said in your opening remarks that there are some 
real challenges there and going out there and spending the 
time, my Deputy Secretary spending multiple trips to the area 
and others, I think, it was really important for an edification 
process for us to understand just the complexity, the breadth 
of the mission there. And I am committed to finding the 
solutions.
    Senator Cantwell. And living up to the tri-party agreement?
    Secretary Perry. Yes, absolutely.
    Senator Cantwell. Okay, great.
    Now on the PNNL side, we saw some great technology, whether 
that was in cyber or smart grid.
    Secretary Perry. Batteries.
    Senator Cantwell. Batteries, thank you. You remember, good.
    Secretary Perry. Yes, ma'am.
    Senator Cantwell. Alright.
    So why cut this area of the budget? I am not the only one 
here representing national laboratories, right?
    Secretary Perry. Absolutely.
    Senator Cantwell. So.
    Secretary Perry. And I hope and I lay on the table a 
history of being a manager of a rather large enterprise as the 
Governor of the State of Texas. I was an appropriator and an 
agency head in that state as well. So, the experience that I 
bring, just because there is a reduction of a line item, 
doesn't necessarily mean that there's going to be a reduction 
in results. I hope there's some comfort that what we're doing 
is prioritizing in these national labs.
    Are we going to be able to fund every line item the way 
that the line items were funded back prior to the 2018 proposed 
budget? Probably not. But that doesn't necessarily mean that 
the results that we're going to have out of those national labs 
are any less consequential.
    Senator Cantwell. Well, I'm not sure I agree with that, but 
I hope you are right. I definitely want science to be a bigger 
priority within this Administration.
    But let me turn to cyber for a second because you were, I 
think, at a House Committee. I wasn't sure if this was before 
the Commerce Committee, which you were also there with a member 
of the Cabinet, but you said you were not confident that the 
Federal Government has a broad strategy in place as it relates 
to cybersecurity. I don't know if you were talking about 
duplication or issues, but my concern is that we still don't 
have an assessment. We don't have a risk assessment.
    Secretary Perry. Okay.
    Senator Cantwell. So, if we don't have the risk assessment, 
how do we know what we are really budgeting toward?
    Secretary Perry. Yeah.
    Senator Cantwell. Now, you took one step at it which, I 
think, given everything that has happened, a 10 percent 
increase is not where we need to be. I have called for a 
doubling, but I could see where I am wildly underfunding what 
is one of the most serious threats to us as a nation right now.
    So what can we do to get this threat assessment done by 
these agencies?
    I think I mentioned to you when I hear from our colleagues 
at Armed Services or Homeland Security, the military sit at the 
very table you are sitting at and then tell them, yes, this is 
a real threat, a real problem, but DOE has to fix it. And then, 
here you are sitting with a 10 percent increase and no threat 
assessment.
    Secretary Perry. Yeah.
    Senator Cantwell. So what can we do to get both a better 
understanding of our real risks and an accurate budget increase 
to fund what is critical, critical, to our national security?
    Secretary Perry. Senator Cantwell, thank you for 
recognizing the challenge that we have. It is very real. It is 
ever changing.
    And again, I don't want to belabor this point of a 10 
percent increase being less than what you think is appropriate 
for this. That's why we have these hearings is to discuss these 
areas of conflict.
    When it comes to you believe it needs to be more, I might 
believe it needs to be a bit more myself, but the fact is we're 
spending some dollars in other areas in our budget that are 
going to have real concrete effect on cyber. And I'll give you 
an example. In exascale computing and our ability to be able to 
manage massive amounts of data is going to be, I think, 
tantamount to our success in combating the cyberattacks that 
are going on. That amount of money has been increased by 31 
percent. So it's not just in that line item on standing up the 
cyber----
    Senator Cantwell. Do you believe that we need a risk 
assessment as a nation?
    Secretary Perry. Do I?
    Senator Cantwell. Do we need a risk assessment of this 
problem?
    Secretary Perry. I think that's going on as we speak.
    We have three different areas in DOE that are focused on 
cyber and have been meeting and having these conversations 
before. The coordination and the conversation is ongoing, 
Senator.
    Senator Cantwell. Well, I am sure that all of us, either in 
a secure room or publicly, would like to see the government's 
risk assessment.
    Secretary Perry. Absolutely.
    Senator Cantwell. I hope you agree that they need one. I 
don't think we have gotten it yet, so I hope you can help us 
get one.
    Thank you.
    The Chairman. Thank you, Senator Cantwell.
    Senator Cassidy.
    Senator Cassidy. Hi, Secretary Perry. How are you?
    Secretary Perry. Doctor, how are you, sir?
    Senator Cassidy. Last week this Committee advanced the 
Small Scale LNG Access Act of 2017 which gives Caribbean and 
Central American countries greater access to liquified natural 
gas. The legislation mirrors DOE rulemaking announced last 
September. This bill, just to put a plug in for it, benefits 
American workers, the American economy, American geopolitics 
and lowers global greenhouse gas emissions.
    There are some objections that somehow this would raise 
domestic natural gas prices, but according to the CIA World 
Factbook, the entire energy demand of all Caribbean nations 
combined is 1.2 percent of the U.S. Given that only small 
volume projects are eligible to benefit from the legislation 
and the 1.2 percent, the low energy demand, what do you think 
will be the impact of this legislation on U.S. natural gas 
prices?
    Secretary Perry. In a simple statement, I would suggest it 
would be miniscule, even if identifiable at all.
    Senator Cassidy. And how do you think this would impact the 
energy markets that we are targeting, those in the Caribbean 
and Central America?
    Secretary Perry. I think opening up those markets is 
incredibly important whether it's being able to modernize, get 
away from some very ineffective fuels from the standpoint of 
both cost and to the environment. Being able to bring that LNG 
to play in those markets would be good for their----
    Senator Cassidy. And many on this Committee are concerned 
and just to speak to them about global greenhouse gas 
emissions.
    So, if we're replacing high sulfur, highly viscous 
Venezuelan crude as an energy source with, I would prefer 
natural gas from Louisiana, but you would probably prefer 
Texas, but U.S. natural gas. What would that do for those 
global greenhouse gas emissions?
    Secretary Perry. Yes, sir.
    Texas gas does burn cleaner. That's true that you 
identified that.
    [Laughter.]
    In all seriousness, we saw a major transition from older 
inefficient plants in my home state in the 2000s to gas plants 
and we saw the sulfur dioxide down by 60+ percent emissions, 
the nitrogen oxide down by almost over 50 percent.
    Senator Cassidy. And that is not even using Venezuelan sour 
crude.
    Secretary Perry. That's correct.
    Senator Cassidy. Which many of these folks do.
    Secretary Perry. That's right.
    Senator Cassidy. You are using something cleaner than that.
    Secretary Perry. Yup.
    So the point is we know that you can see emission 
reductions and substantial emission reductions when you 
transition away from older inefficient plants and particularly 
plants that are using, you know, we can get into a whole other 
discussion which we don't have time here for about the 
Northeast being forced to use some pretty ineffective fuels 
because they do not allow the transport of natural gas across 
some of those states.
    Senator Cassidy. Well, let me ask you something else.
    Texas was a leader in wind power, probably is the leader in 
wind power.
    Secretary Perry. Still is, yes, sir.
    Senator Cassidy. One thing that we have noted is that using 
more natural gas because you can have your startup plant in 
background work, that actually you enable expansion of 
renewables by converting your baseload, if you will, to natural 
gas. Any comments on that?
    Secretary Perry. No, sir, you're correct.
    Senator Cassidy. Yes.
    I think we saw that you get an 0.8 incremental increase of 
renewables for every one percent or every unit of one, if you 
will, increase of that.
    Secretary Perry. Yeah.
    Senator Cassidy. So anyway, just to, kind of, explore that 
with you. Thank you.
    One more thing that is a concern.
    There is a MOX plant being built in South Carolina. I won't 
ask you to comment on this too much except that there was an 
order for a, kind of, contractor collaborative process to re-
baseline Order 413.B from the Department of Energy. I am not 
sure that has been updated in this collaborative process. Can I 
have your commitment just to review that and get back to us on 
that process?
    Secretary Perry. Yes, sir.
    Senator Cassidy. I appreciate that.
    Secretary Perry. Yes, sir.
    Senator Cassidy. I yield back. Thank you.
    The Chairman. Thank you, Senator.
    Senator, I guess it is now, Cortez Masto.
    Senator Cortez Masto. Thank you.
    Secretary Perry, yesterday I sent you a letter on current 
Yucca Mountain activities and expenditures and an update on 
expenditures that would be associated with a restarted Yucca 
Mountain licensing proceeding. It is important that my 
constituents have an accurate understanding of the balances of 
the accounts for nuclear waste disposal and what expenditures 
are being made in regards to Yucca Mountain in the absence of 
Congressional direction.
    Would you commit to giving this letter your attention and 
providing a quick response within the next two weeks?
    Secretary Perry. I literally just had it in my hand this 
morning, and I'm going to review and give you as timely a 
response as possible, so.
    [The letter on current Yucca Mountain activities follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    Senator Cortez Masto. Thank you. Thank you.
    Your budget recommends spending $120 million to bring high 
level nuclear waste to Nevada and, prior to your confirmation 
you were asked about Yucca Mountain and you stated to this 
Committee in writing that, ``I cannot at this time make an 
assessment about the time and cost associated with the Yucca 
project, but I am committed to learning more about the project 
and helping to resolve this national problem.''
    I want to focus on the first part of your answer which is 
the time and cost. In regards to cost, are you aware of the 
last year in which the Department of Energy completed a total 
system, life cycle cost assessment for Yucca Mountain?
    Secretary Perry. I am not.
    Senator Cortez Masto. Let me tell you. It was 2008, more 
than a decade ago.
    Are you aware of the detailed estimates this report 
included on the total costs for Yucca Mountain?
    Secretary Perry. I am not.
    Senator Cortez Masto. Okay.
    In 2007 dollars, about $96 billion, and it has not been 
adjusted for inflation.
    Are you aware that this report also indicates the 
Department of Energy will need $13.5 billion, again, in 2007 
dollars, and 10 years just to obtain a construction 
authorization and license from the Nuclear Regulatory 
Commission?
    Secretary Perry. I take your word for it, Senator.
    Senator Cortez Masto. Thank you.
    One of the many yet-to-be-addressed concerns regarding 
engineering safety and costs pertains to DOE's design for 
titanium drip shields that are supposed to sit over each of the 
thousands of waste canisters in Yucca Mountain's underground 
tunnels to keep out corroding water. No plan has been made to 
design these structures, no pay-for has been determined which 
is particularly crucial considering the amount of material 
required has been said to exhaust the nation's supply of 
titanium and no plan has been made on how to install the 
shields. This unacceptable state of affairs was detailed by 
former NRC Commissioner, Victor Gilinsky, in a bulletin of the 
Atomic Scientists Journal article in November 2014.
    Has any such consideration like this been made?
    Secretary Perry. Senator, I would tell you that in the 
decade that's passed since that report that you're making 
reference to that a lot of technology has changed and I don't 
want to----
    Senator Cortez Masto. Has the Department of Energy done a 
consideration or analysis based on that, to put costs 
associated with it?
    Secretary Perry. No.
    Senator Cortez Masto. Okay.
    And if you are going to make a budget request to restart 
licensing for a facility that requires such expensive, 
innovative engineering, wouldn't it be more appropriate to lay 
all of these considerations before Congress before asking for 
more money?
    Secretary Perry. I think what we're asking, Senator, is 
that these dollars are for the licensing side that the NRC is 
working on and for our operational side of it just to cover the 
cost of that. It's not to be looking at the structural issues 
that are involved there that may or may not be final.
    Senator Cortez Masto. So, in that regard, did the 
Department of Energy feel confident in the current license 
application for Yucca Mountain or would it need to submit a new 
application for changes?
    Secretary Perry. I think we would be going forward with the 
licensing process as the law requires us to and I think----
    Senator Cortez Masto. Are there additional costs associated 
with it?
    Secretary Perry. Not that I'm aware of.
    Senator Cortez Masto. Would the Environmental Impact 
Statements for the project require any updates?
    Secretary Perry. I would suggest it probably would.
    Senator Cortez Masto. Does the Department of Energy even 
have a final design for the facility?
    Secretary Perry. No.
    Senator Cortez Masto. So why should Congress agree to 
appropriate any funds without answers to any of these 
questions?
    Secretary Perry. Well, I think this issue has been on the 
table for a long time and Congress has, you know, Congress 
funds a number of things without having a final plan done. So, 
this is nothing out of the ordinary. This is basically the----
    Senator Cortez Masto. I appreciate that comment, but I 
disagree.
    Secretary Perry. Yes, ma'am.
    Senator Cortez Masto. I am sitting here in Congress, and I 
want a final plan. I want to know how the money is being spent. 
I want an analysis. I want an assessment. I think it is 
irresponsible not to ask those questions, to ask for that 
information and it is your job to provide that information.
    I am looking forward in the future if we are going to go 
down this path, and we have had this conversation before, I 
think you need to come up with concrete answers and an 
assessment and a cost affiliated with it for many things that 
are happening right now at the Department of Energy and I 
disagree with some of the comments you have made and have 
concerns and echo some of the concerns of my colleagues with 
respect to the budget cuts that are occurring and being 
requested for the Department of Energy and the impact it is 
going to have on Nevada as well.
    Thank you. I notice my time is up.
    The Chairman. Thank you, Senator.
    Senator Barrasso.
    Senator Barrasso. Thank you, Madam Chair.
    Mr. Secretary, thanks for coming back. It is always good to 
see you.
    As you and I have discussed, I am strongly opposed to the 
Department's practice of bartering excess uranium to fund the 
cleanup and decommissioning of the Portsmouth plant. We have 
talked about that and that is not something that you, or this 
Administration, had begun and we have talked about the need to 
get rid of it because the GAO has repeatedly said that the 
barters are illegal.
    The barters have also contributed to record low uranium 
prices and put uranium workers, certainly in Wyoming as well as 
states who are producing uranium, out of work. Last year U.S. 
uranium production was at the lowest levels since 1950, and we 
are on the cusp of losing our ability to produce our own 
nuclear fuel. So the Administration, I think, in terms of our 
own national security cannot let that happen.
    Could you commit to ending these barters, funding the cost 
of cleanup and decommissioning services at Portsmouth 
exclusively with the Congressional appropriations?
    Secretary Perry. Senator, thank you.
    It's a privilege to be back here in front of you and as you 
and I have had conversations both privately and as I've stated 
publicly, I think this uranium bartering process has to be on 
my list of one of the most poorly designed policies I've ever 
come across since becoming Secretary of Energy. It pits two 
very important objectives against each other and it doesn't 
serve either one of them very well and, personally, I'd like to 
see it stopped completely.
    We realize what the challenge is. Our efforts should be 
focused on letting the uranium marketplace work as it should 
while continuing, without disruption, the important work that's 
taking place at the Portsmouth site.
    So, given the needed funding is passed in the 2018 Omnibus, 
I would be pleased to announce the suspension of the barter 
program in 2018 and between now and then decide on the Fiscal 
Year '19 budget and I'm certainly committed to working with 
Congress on that. I hope we can extend ending the barter beyond 
this Fiscal Year, working together to fully fund our 
environmental management cleanup through the appropriations 
process.
    Senator Barrasso. Thank you, Mr. Secretary.
    I want to move to one other area.
    In your testimony you expressed support for advancing 
America's coal industry through innovative clean coal 
technologies. The Department proposes in its budget, however, 
to cut funding for carbon capture utilization and storage 
research and development by about 80 percent.
    I think now is not the time to cut this funding for carbon 
capture utilization and storage. Expanded use of these 
technologies is going to help us protect our environment, 
support the continued use of America's abundant fossil 
resources that we have.
    Just over a month ago I worked with a bipartisan group of 
colleagues to pass legislation extending and expanding tax 
credits for carbon capture utilization and sequestration. We 
should, I believe, build upon the success of this legislation 
by maintaining a robust research and development program to 
support the expanded development of this technology. What 
assurances can you give me that the Department's budget request 
is sufficient to support this development and commercialization 
of clean coal technologies?
    Secretary Perry. Senator, as I said earlier to Senator 
Cantwell, just because there's a reduction in any particular 
line item, it doesn't mean that the results that we're going to 
be having are not appropriate and our commitment to carbon 
capture utilization, storage, is very strong.
    We went to China last year to the Clean Energy Ministerial. 
We got CCUS placed into the list of different technologies that 
they're going to be funding and working on in a worldwide way. 
We were in the UAE with substantial fossil fuel developers and 
promoting carbon capture utilization in that arena as well. So 
not only is the agency committed to continuing to fund, but 
also in our national labs, to use their substantial technology 
and innovation to come up with new techniques, new avenues to 
be able to use coal in a way that is not only appropriate to 
the environment but that's also, from an economic standpoint, 
very pleasing.
    Senator Barrasso. Well, thank you very much.
    I have some additional questions I will submit in writing.
    Thank you, Madam Chairman.
    Thank you, Mr. Secretary.
    The Chairman. Thank you, Senator Barrasso.
    Senator Duckworth.
    Senator Duckworth. Thank you, Madam Chairwoman.
    Secretary Perry, when we met during your confirmation 
process, you promised me you would visit both Argonne and Fermi 
labs in Illinois, and I want to thank you for following through 
with your commitment and visiting both of those labs.
    Although I don't agree with all aspects of the budget the 
Administration is proposing, I am happy to see that the work 
that Argonne and Fermi labs are leading, like exascale 
computing and the Long-Baseline Neutrino Facility, are actually 
priorities for the Administration.
    Secretary Perry, I also want to thank you and your team for 
working with my office to provide input on bipartisan 
legislation I am working on along with Senators Graham and 
Bennet to help veterans secure good jobs in clean energy.
    Our nation has experienced an exponential growth in clean, 
renewable energy. Today solar energy is the fastest growing 
industry in the U.S. and wind energy is quickly becoming a 
dominant form of energy.
    In addition, rapid innovations in technology are unlocking 
additional forms of low carbon emission energy options. I 
believe there is tremendous opportunity for our veterans to 
find careers in these energy sectors. Will you support passing 
my bill at this Congress to create an innovative Department of 
Energy program that will promote the hiring of veterans in the 
clean energy industry?
    Secretary Perry. Senator, I think you know, probably as 
well as anyone in this room, my commitment to our veterans and 
in a multitude of ways. We look for ways to bring them into the 
workforce because you and I both know that they already have 
matured beyond their years. They're already trained up in a lot 
of different areas so that we don't have to retrain them or to 
give them initial training. We are supportive of all programs 
that help employ those that we have made a commitment to 
because they have served this country in a sacrificial way.
    Senator Duckworth. Thank you.
    I was also very pleased to learn from Argonne that under 
your leadership DOE is prioritizing research in precision 
medicine. There appears to be several direct applications for 
this work in our military community, including helping to 
prevent suicide, addressing heart disease and treating some 
forms of cancer.
    I know you have mentioned this to me in the past. Could you 
please provide recommendations on how Congress can better 
support the work of DOE and our national laboratories in 
advancing precision medicine research and development?
    Secretary Perry. We will and let me just say in a broad way 
that we already have in our national labs working on some of 
the nuclear medicine and obviously down in, I think, Jefferson 
lab in Norfolk there in their physical particle lab, some 
science that's going on that has the ability to really improve 
our, the scientific side of, the health community and using 
nuclear medicine there.
    But one thing that I would invite you to do sooner, better 
yet, let me send them to you, and I'd love to have my ACTIV 
program that we're just now standing up that is focused on 
veterans' mental health. And it's not just veterans, it's also 
our first responders. You know, the NFL is going to be 
intrigued with this as will our Olympic athletes for that 
matter, a mother who's got a daughter who plays soccer, any 
place where concussions can come into place. And we're using 
our massive computing capacity at the national labs, 
particularly in your district, for that purpose. I'd love for 
them to come up and brief you so that you have a really good 
handle on this, because I know your love for our servicemen and 
women and our veterans, as well as the science on this, can 
change some people's worlds in a really positive way.
    Senator Duckworth. Thank you. I do appreciate the increases 
in the budget to both of our national labs.
    We need to remain at the forefront of the supercomputing 
capability on a global scale. If we don't, other nations will 
not only catch up but surpass us, and they are actively 
investing huge amounts of money in that. It is good to see that 
that is covered in this year's budget.
    Thank you. I yield back, Madam Chair.
    The Chairman. Thank you, Senator Duckworth.
    Senator Portman.
    Senator Portman. Thank you, Madam Chair, I appreciate it.
    Secretary Perry, I appreciate you making good on your 
promise which was made during the confirmation process to come 
out to the Portsmouth Gaseous Diffusion Plant. We heard talk of 
it earlier. It is in Piketon, Ohio.
    For 50 years it enriched uranium for our government, for 
our nuclear Navy, for our nuclear power plants, for the tritium 
we need in our nuclear arsenal. The workers at that plant made 
a lot of sacrifices with some health issues, and now we are 
cleaning up that plant.
    And to my colleague from Wyoming, who has departed, he 
talked about the need for us to stop using barter. Well, 
unfortunately we had to rely on barter because in the last 
Administration, they did not provide us the appropriations. In 
fact, they even slowed down the cleanup from 2025 to 2044, 
slowed it down by about 20 years with the funding they 
provided, even including the barter which is a huge mistake, 
not just for that site and for the safety of that area and the 
reindustrialization that everyone wants, but also for the 
taxpayer because it ends up costing the taxpayer a lot more 
when you extend the life of these cleanups. So we need the 
funding.
    I just did a little research. There were 323 mining jobs in 
Wyoming last year in uranium. When the funding was to be cut 
off at Piketon, as you know, 800 jobs were on the chopping 
block.
    Secretary Perry. Yes, sir.
    Senator Portman. We have 1,800 people that are doing this 
cleanup. You have seen what they do firsthand.
    They are great people. They are doing it in a smart, 
committed way, but man, this funding going up and down and the 
barter being pulled, would obviously create, again, this crisis 
out there where we would lose a lot of good people and we need 
them. It is a community that has very high unemployment 
already. I guess what I am suggesting today is let's not pull 
the plug on the barter until we have the appropriations.
    Secretary Perry. Sure.
    Senator Portman. I guess I am looking for a commitment from 
you today that you will continue the barter program unless 
adequate appropriations are provided in the funding for FY'18 
and FY'19 with regard to the Piketon plant.
    Secretary Perry. Yes, sir.
    Senator, I am committed to the cleanup of that facility. My 
preference, obviously, is to have it appropriated the old-
fashioned way, if you will, from a straight-up appropriation 
where your citizens and the workers at that plant know that 
Congress is committed to the funding of that through a normal 
appropriation. Obviously, if that does not happen, and then I 
have shared that with Senator Barrasso as well, if that does 
not happen the commitment to that cleanup is there and it is 
solid and it is long-term.
    Senator Portman. Thank you. I appreciate it, Mr. Secretary.
    I do not disagree with you, as you know, and I appreciate 
your commitment to it. We are just trying to clean this thing 
up.
    Secretary Perry. Yes, sir.
    Senator Portman. It is not good for the area, and it is not 
good for the taxpayers.
    The other issue, as you well know, because I have talked 
about this and you saw the site. The Obama Administration, 
toward the end of its term, pulled the plug on the new 
generation of enrichment. I listened to what my colleague and 
my good friend, and he is from Wyoming, said, if we don't have 
this mining, he said, we would lose our ability to produce our 
own nuclear fuel, but we have already lost it.
    Secretary Perry. Yes, sir.
    Senator Portman. We do not have any domestic-owned or 
domestic-controlled enrichment process in the country now 
because we have shut down Piketon. We shut down Paducah. We 
were on track under the previous Administration, through the 
ACP program, which is American Centrifuge Plant, to create that 
with this new, much more energy-efficient technology called 
centrifuge.
    So my question to you is, are you aware of the fact that 
there was going to be a re-evaluation of the Obama 
Administration approach to this? I believe you talked about it 
in your confirmation? And if so, what are the results of that? 
Do we have any sense as to where we are going on the next 
generation of enriched uranium?
    Secretary Perry. Yes, sir. The short answer is yes, sir. 
We're working toward that as we speak.
    I think my commitment to bringing the civil nuclear program 
in this country back to one of stability and, frankly, to lead 
the world is pretty much on display. It has been.
    We think that there has been, for whatever reason, a--I'm 
not going to call it an anti-nuclear mentality but the nuclear, 
civil nuclear business, has been left by the wayside, whether 
it's building new plants here, whether it's been committing to 
small modular reactors. We have tried to reinvigorate that, 
send some clear messages that this country needs to lead the 
world in civil nuclear technology and these centrifuges are 
obviously a very important part of that process.
    Senator Portman. I appreciate that. We need to have a 
source for enriched uranium. We also need it for our nuclear 
Navy, as you know, as well as anybody, and we also need it for 
our tritium because that low-enriched uranium is necessary to 
keep our nuclear arsenal up to date. Finally, from a national 
security point of view, in terms of non-proliferation, maybe 
the single most important thing we can do as Americans is say 
if you don't enrich uranium in your country, which often, as 
you know, has gotten diverted into nuclear weapons programs, 
Iran being the greatest example, we'll provide you that 
enriched uranium. We can't do that now. We can't tell people we 
can provide the enriched uranium. We do have a stockpile, 
admittedly.
    Secretary Perry. Yup.
    Senator Portman. But we have no program to be able to 
continue that. By not having a commitment to it, to restart it, 
it is going to take billions of dollars and years and years. I 
just wish we could get started on it now so we have that 
capability into the future.
    I thank you very much. I have other questions for the 
record I will ask, and I appreciate your service.
    Secretary Perry. Thank you, sir.
    The Chairman. Thank you, Senator Portman.
    Senator Manchin.
    Senator Manchin. Thank you, Madam Chairman, and thank you 
for holding this hearing. And Secretary, it is always good to 
be with you and it is good to see you again.
    I am reminded that our friendship goes back to our days as 
Governor in 2005 that we really knew each other, knew quite 
well when you had Katrina and you graciously took all of the 
hundreds of thousands of people from Louisiana and Mississippi 
and helped them. We were able to send troops down, also send C-
130's and assist, and we have been hooked together ever since.
    Also, you have been quite busy fulfilling all your promises 
and commitments in a bipartisan way to visit all the states you 
have. I want to thank you too, because you came to West 
Virginia and you looked at what we had and what we did, at some 
of the power plants that we have.
    And also, NETL, the National Energy Technology Lab, in 
Morgantown which is working on the clean coal technology which, 
I think, Senator Barrasso had asked you about. I appreciate 
your commitment on that and using the great coal that we have 
in our state in a much cleaner fashion and looking for 
different technologies there.
    Also, the storage hub, which we will talk about and also 
the rare earth elements which we have found that we were able 
to extract and be self-sustaining here in America. Those are 
very important projects that NETL has been leading the charge 
on and you have been very supportive.
    What I would like to ask you about is the Title 17 Loan 
Guarantee Program from the DOE. I know it had been recommended 
to be phased out, but there is still an awful lot of mileage 
left there. I think there is about $8.5 billion in authority 
left for the fossil projects on clean coal technology but also 
the storage hub which is extremely important to us and, I 
think, the security of our nation.
    So, I think first of all, your concerns about the program 
being eliminated in spite of strategic importance and also do 
you agree/disagree on that program and what we can do to make 
it even stronger?
    Secretary Perry. Yes, sir.
    Senator, thank you for your longtime friendship and, just 
as an aside, I'll say that coming to your district, sitting 
down with you and Senator Capito, the leadership over at the 
University of West Virginia and the Governor's Office, economic 
development folks in that community, really turned on a bright 
light for me from the standpoint of how developed that region 
of America, who's sitting on top of the Marcellus and the Utica 
and that huge gas deposit and creating a duplicative national 
security of a refining capability in petrochemical. It was a 
really important trip for me.
    To the LPO, the Loan Programs Office, I think the key words 
from my perspective in a realistic way is phasing out. There 
are billions of dollars there that have already been 
appropriated I think that we could certainly, with your 
guidance, use in a very thoughtful way that can affect a lot of 
citizens in a positive way.
    I'm not going to try to get into anybody's head other than 
to say that if this Committee and Congress, collectively, 
decide to go forward with that program, that we will operate it 
with the type of oversight and transparency and the results 
that you all will be proud of.
    Senator Manchin. Secretary, also, I want to talk to you 
about, and you and I have spoken directly on this, the storage 
hub for the national security of our nation, but also with the 
tremendous find of new resources we have in the fracking that 
we have done. West Virginia, Kentucky, Ohio and Pennsylvania 
have been a tremendous boon for our energy independence, if you 
will.
    With that, we have promised, we have promoted a storage hub 
which will give us the product and keep it in a very safe 
location, also strategically away from our weather-torn areas 
such as your state gets hit quite frequently and so does 
Louisiana.
    I don't know what you all are doing toward that and how 
your support--or do you feel that it would be a great strategic 
direction for our nation?
    Secretary Perry. As the Governor, I'd wake up in August and 
September and say a little prayer that a Category Five 
hurricane did not come up the Houston ship channel. I'd seen 
that model before and it's devastating, not just in the number 
of people that lose their lives, which is obviously at the top 
of that, your concern list, but the devastation that it does to 
the country's petrochemical capacity to have a duplication of 
that in a region of the country that is protected from that 
type of a natural disaster would be, I think, invaluable.
    So duplicating that in that Appalachian region--
Pennsylvania, Ohio, Kentucky, West Virginia--not only in an 
area that economically could certainly use the shot in the arm, 
sitting on top of the great natural resources of the Marcellus 
and the Utica can transition a region of America that would be 
very pleasing economically.
    Senator Manchin. Well, your support, I will say this, the 
Department of Energy's support and the Administration's support 
is going to be vitally needed for this to be accomplished, but 
it is something, I think, that is drastically needed. The 
economic impact is $36 billion, almost at the turn of the 
switch, but on top of that, the security of our nation. And 
sir, your attention to this is greatly appreciated.
    Secretary Perry. We are going to be focused on it like a 
laser.
    You're absolutely correct from the standpoint of this is 
one of the projects that I've seen that the government can help 
with and actually not have to fund. I mean, the private sector 
will supply the funding. They just want to make sure that the 
permitting process isn't--the ability to get done what we're 
asking them to get done can be done, as expeditiously as 
possible.
    Senator Manchin. Thank you.
    Secretary Perry. Yes, sir. Thank you.
    The Chairman. Thank you, Senator Manchin.
    I appreciate your bringing up the loan guarantee program. I 
think there are many of us around here who feel that well, that 
program needs some reforms, and we actually suggested those in 
our energy bill that we had moved out of here, but we have some 
funding that is left in it that, we think, could certainly be 
used to leverage some infrastructure out there. So thank you 
for raising that.
    Senator Gardner.
    Senator Gardner. Thank you, Madam Chair. And thank you, 
Secretary Perry, for your testimony and leadership today.
    I had the honor of joining a couple of our colleagues in a 
visit to the Middle East here a couple of weeks ago. As we were 
flying over Jordan, right around dusk, I could not help but 
look down and see Amman, Jordan, right below us on an airplane 
and think about what if the great inventions surrounding us 
hadn't been discovered by people in America?
    I was looking down at roads that were filled with cars, 
Henry Ford, who perfected the assembly line and the mass 
manufacturing of automobiles; looking at houses that were lit 
up by lights that Thomas Edison helped invent; flying on an 
airplane that is the outgrowth of work first done by the Wright 
Brothers in the United States--all of whom played an incredible 
part of who we are today as a nation. And I began to wonder, 
what happens if those next inventions are not from the United 
States? What happens if it is not America that discovers those 
things or people in America that discover those things, but it 
is China, it is India, it is Russia, it is somebody else? What 
happens when the great things that have fundamentally 
transformed our economy come from somewhere else?
    And so, that is when I look at the budget for the 
Department of Energy, I am concerned about some of the areas of 
research and the advanced research, in particular. I want to 
make sure that we continue to advance in this country because 
what happens if that great next energy discovery is not in the 
United States, but it is indeed in China, or India and they are 
able to manufacture it? They are able to capitalize on those 
jobs and the next time we fly over, whether it is Amman, 
Jordan, or Denver, Colorado, we look down and do not see the 
impact that America has had, but the impact that some other 
nation has had because we took our eye off the ball.
    We are proud of the contributions that our national lab 
system has made, the efforts we have made at advanced energy 
research, incredibly proud of the work the National Renewable 
Energy Laboratory has done in Colorado. I think we have 
achieved so much because we have had that research and that 
partnership with the Federal Government that we can't, you 
know, we can't get rid of that, sort of, idea that we have the 
opportunity to partner and build funding opportunities.
    And so, the benefits for our nation in energy security, 
energy resiliency, energy affordability, significant economic 
job creation, the economic advantages to this research that we 
will only be able to achieve if we continue to support our 
scientists and engineers at our federal facilities and research 
facilities.
    Can you give me the assurances that I need, many of us 
need, to make sure that we continue our strong support of our 
national labs and that you understand the importance of DOE-
sponsored research and that you will support it going forward?
    Secretary Perry. Yes, sir.
    Senator, the thing I've been most proud of in the year that 
I've spent as the Secretary of Energy is being able to go to 
these national labs. As I said in my opening remarks and I 
talked about, I never met any more patriotic, more committed 
individuals as those that are working at our national labs. 
Obviously, the support of them from Congress is very powerful, 
is palpable. It will continue on, I know that.
    And to address with specificity what you brought up in a 
really beautiful observation about this country, the dollars 
that you all are going to appropriate, the dollars that we've 
asked for, for exascale computing, probably will make the 
biggest impact upon all of that type of research that you're 
making reference to, the innovation that's going to come out of 
the labs, it's going to be expedited exponentially by the 
commitment to the exascale, supercomputing capacity that we 
have at those. And our commitment is very deep and broad in 
that arena.
    Senator Gardner. Well, Mr. Secretary, I look forward to 
working with you on that funding.
    Secretary Perry. Thank you.
    Senator Gardner. As well as a number of other areas of 
funding, to make sure that we continue being the pride of 
United States in our national lab system. But more than that, 
the pride and envy of the world as they look at our great 
centers of innovation and excellence, represented by our 
research, development and national lab system.
    Switching now, real quick, to grid cybersecurity issues. 
The Office of Electricity Delivery and Energy Reliability has 
led an effort, in coordination with the labs, to talk about the 
technological challenges of grid modernization. In many cases 
these assets that we are working with are privately owned and 
do not have the resources for research and development on their 
own. Therefore, DOE has provided a lot of support in the 
research testing and validation and deployment of technologies 
for the grid.
    The budget request splits the office into two, I believe, 
with one focused on cybersecurity and energy security and one 
focused on electricity delivery.
    I am going to ask a few questions. I am going to run out of 
time, so maybe we can continue this conversation after the 
hearing.
    The DOE Grid Modernization Initiative and the Grid 
Modernization Laboratory Consortium have brought together 
technical expertise from national labs to address the 
challenges that the grid faces from a cybersecurity and energy 
storage standpoint. The cross-cutting initiative has been a 
success. I think most people would admit it, and it is 
important the DOE continue to lead this program.
    So, number one, can you comment on the Department's plans 
for these two efforts? If you could get back to us on that, 
that'd be great.
    Secretary Perry. Yes, Senator.
    Senator Gardner. And then this week we have heard a lot 
about foreign nations attacking our grid. We have the 
possibility of a foreign nation that has attacked our Colorado 
Department of Transportation with the SamSam ransomware virus, 
shutting down 2,000+ computers in the Department of 
Transportation. Are you confident the Department's budget 
request will provide the resources necessary to ensure that our 
electric grid remains secure? Is there something else that we 
can do to support a strong, coordinated, interagency, federal 
effort to make sure critical infrastructure has the necessary 
cybersecurity tools? And there are other discussions we can 
have. I am out of time, but----
    Secretary Perry. Senator, I will get those to you post 
haste.
    Senator Gardner. Thank you. Thank you.
    Secretary Perry. Yes, sir.
    The Chairman. Thank you.
    Recognizing again the Secretary's time schedule and that we 
have four more colleagues, we will try to get through this 
quickly.
    Senator Wyden and then Senator Heinrich.
    Senator Wyden. Thank you, Madam Chair.
    Mr. Secretary, it is good to see you.
    Secretary Perry. Thank you, Senator.
    Senator Wyden. A little bit of Pacific Northwest business.
    I told the Bush Administration, George W. Bush, his folks, 
that Bonneville was not going to get sold off on my watch and 
it is not going to get sold off now either. So I just want to 
put you on notice on this.
    Secretary Perry. Yes, sir.
    Senator Wyden. We also are very concerned in our part of 
the world about eliminating the National Energy Technology Lab 
in Albany which, I think, is doing singularly good work. I was 
in Albany, Oregon, just a couple of days ago and heard again, 
and I hope you will reconsider that.
    I do want to ask you about Hanford because you are up on 
the layout there. You were there recently. On March 6th, the 
project director for the waste treatment plant sent the private 
construction contractor a letter demanding that the company 
explain why it could not document that the steel used at the 
plant was up to safety standards, and the project director said 
that this was a potentially unrecoverable quality issue. 
Basically what that means in English is they could not open the 
plant after billions of dollars had been spent and decades of 
effort, if that was actually the case. A week later, Mr. Hamel 
was transferred and I would like to believe the best in people, 
but it is hard to see that that was a coincidence.
    So I want to ask a couple of yes or no questions. I want 
Mr. Hamel to promptly provide the Committee with the detailed 
history and explanation about this potentially devastating 
safety issue at the $17 billion waste treatment plant that has 
not yet treated an ounce of radioactive waste. Will you, yes or 
no, direct him to provide us that information.
    Secretary Perry. Yes.
    Senator Wyden. Great.
    Second, I would like you to make Mr. Hamel available to us 
so that we can ask him directly, without interference, about 
this issue. Will you do so?
    Secretary Perry. I am not sure I can make him do that, 
but----
    Senator Wyden. No, will you----
    Secretary Perry. But the request would certainly be there.
    Senator Wyden. You will tell him that it is acceptable to 
you for him to sit down directly with us?
    Secretary Perry. Yes, sir.
    Senator Wyden. Thank you.
    Then, I think that just allows me to wrap up and save the 
Chair a little bit more time.
    This is extraordinarily important.
    Secretary Perry. Yes, sir.
    Senator Wyden. We have seen billions of dollars go into 
this. You have now got the project director saying that there 
is a potentially devastating safety issue, and he has just been 
transferred after reporting this. So this story really needs 
now to get into the details. It is a whistleblower story. It is 
a safety story. It is an accountability story.
    When you met with me privately before you were confirmed, 
you said that on those kinds of issues, we could work together. 
The answers you have given this morning are constructive.
    I need follow-up. We need to have this done promptly and if 
it's not, then we will have to go the route of the Inspector 
General. I would rather not have to go that route. And by 
indicating that you will tell him to provide us the 
information, the detailed history and the explanation of this 
potentially devastating safety issue, that is a constructive 
first step. And that you will tell him it is acceptable to you 
that he meet with us without interference, that is a 
constructive step. So I look forward to pursuing this and 
talking about it more in the future.
    Secretary Perry. Yes, sir.
    Senator Wyden. Thank you, Madam Chair.
    The Chairman. Thank you. Sounds like you have a plan.
    Senator Manchin. Oh, excuse me, Senator Heinrich.
    Senator Heinrich. Thank you.
    Secretary Perry, welcome.
    I want to start out by talking a little bit about 
laboratory-
directed research and development, or LDRD. It is, in my view, 
an incredibly important investment in high risk but high reward 
activities at our national labs. It allows our scientists at 
places like Los Alamos and Sandia, as well as other labs around 
the country, to pursue innovative solutions to some of our 
nation's most vexing energy and also national security 
problems. Do you agree that LDRD is important, in fact, vital 
to the lab's ability to recruit and retain the best and 
brightest scientists and engineers?
    Secretary Perry. Certainly important. Yes, sir.
    Senator Heinrich. Do you support maintaining the lab 
director's current discretion to set aside up to six percent, 
as authorized by Congress for LDRD?
    Secretary Perry. I will follow the directions of Congress, 
sir.
    Senator Heinrich. So you are comfortable with that figure 
as it is currently set?
    Secretary Perry. If you all think that is the appropriate 
number, we will work within the parameters of that.
    Senator Heinrich. Let me ask you a little bit about ARPA-E. 
I am still trying to wrap my head around it. Given the 
advancements that have been made there with solar cells, with 
power controls, with lithium-ion batteries, why would we want 
to zero out that program?
    Secretary Perry. Senator, I come from a background of 
having worked in that type of environment, if you will. That 
was what I did when I was the Governor of the State of Texas 
with the emerging technology fund.
    I know the results of really well-managed programs, and I 
know that there are people on both sides of the aisle that are 
very supportive of ARPA-E. I looked at the results of it and 
have found some very, very positive things that came out of it.
    So let me just leave it at this. If this Congress, if this 
Committee, they support the funding of that, it will be 
operated in a way that you will be most pleased with.
    Senator Heinrich. I appreciate that. I know the Chair is a 
supporter, and I as well think it is important that this body 
revisit some of those funding levels.
    The Chairman. Concur.
    Senator Heinrich. Moving on to storage, Secretary.
    Your testimony indicates that energy storage remains an 
important area of focus. We have certainly seen huge strides in 
storage in the last few years.
    I am pleased to see the request restores full funding for 
the Energy Storage Innovation Hub, known as JCESR. I hope the 
hub will soon be renewed for five years or reauthorized.
    However, your budget, as I mentioned, zeros ARPA-E, nearly 
eliminates the Office of Electricity Storage Research Program 
and starts a new Beyond Batteries initiative. Talk to me a 
little bit about your focus on storage and then explain what 
the Beyond Batteries initiative is.
    Secretary Perry. Yes, sir.
    In a broad sense, I think that battery storage is the 
``Holy Grail'' of the energy storage side of things. So, when 
we're able to do that is, I've had great confidence and it will 
probably come out of a national lab or at least some of the 
work come out of a national lab. Programs grow, they mature and 
I think that's what you're seeing happen here.
    Beyond Batteries is a visionary quest to find us in a 
position to lead the world in battery storage, new materials. 
It's one of the reasons that this country needs to be self-
sufficient as we can be when it comes to rare earth minerals, 
what Senator Manchin was talking about in his district, some 
deposits there that are very positive in that direction.
    So, I hope you will look at this, Senator, as the next 
step, an appropriate next step. DOE has been, historically, 
done early stage financing, get innovations to particular 
places, commercialize them and those programs are mature and we 
go on to the next challenge. So that's what we see it doing.
    Senator Heinrich. I am going to run out of time before 
long.
    Secretary Perry. Yes.
    Senator Heinrich. I would just make the argument, I am 
certainly intrigued by what Beyond Batteries would mean. I 
think we need to be open to new technologies.
    But while lithium-ion has certainly had a huge impact on 
the market, I think additional new chemistries, for example, 
are an appropriate place that is still at that same level of 
development within the lab's role as early stage, not late 
stage technology transfer.
    Secretary Perry. Yes, sir.
    Senator Heinrich. Thank you.
    The Chairman. Thank you, Senator Heinrich.
    Senator Hirono.
    Senator Hirono. Thank you, Madam Chair.
    Mr. Secretary, Hawaii has the most forward thinking, 
renewable electricity goal in the country of reaching 100 
percent of reliance on renewables and alternatives by 2045. And 
this budget goes in totally the wrong direction by cutting 66 
percent for renewable energy and energy efficiency and 60 
percent for electric grid modernization.
    It is not only Hawaii moving to sustainable energy. There 
is a huge future, global market, for clean energy technologies 
and your budget would weaken the United States in developing 
the clean energy technologies that the rest of the world wants 
to buy.
    According to a report by Bloomberg New Energy Finance, 
China invested $132 billion in clean energy technologies last 
year compared to $57 billion in the United States. China is not 
reducing its investments in clean energy R&D so why should the 
United States?
    I think we are going in the wrong direction. So I want to 
ask you, why are we doing that? Why? I know that you said that 
we are continuing to provide resources for research and fossil 
fuels and nuclear power. Where is the commitment to renewable 
sources of energy when you are facing these kinds of budget 
cuts?
    Secretary Perry. Certainly they're still there, some, 
almost $700 million of funding for that and we're really 
focusing on early stage R&D. And we're going to maintain the 
United States' leadership position in these very transformative 
sciences. And I'm comfortable, Senator, that the commitment is 
still there.
    We've had some great success stories, whether it was 
dealing with hydrogen fuel cells in automobiles, whether it's 
the Solar Energy Office met and exceeded its goals of five of 
the last five years. In short, we're hitting or exceeding our 
goals and then, you know, you set new goals. Some of the work 
that we're doing on carbon capture and utilization and getting 
that technology out into the world, into India and China, for 
instance, can be very, very helpful to the environment.
    Senator Hirono. So, Mr. Secretary, I understand the 
importance of the early stage R&D, but if you don't go beyond 
early stages then the technology that is developed can never 
possibly be utilized.
    For example, in September this Committee's Energy 
Subcommittee held a hearing on how to foster innovation in the 
energy sector with an emphasis on the role of our national 
energy labs. The Director of Emerging Technology Strategy for 
Duke Energy, one of the largest electricity utility companies 
in the country, explained that utilities need to know that a 
new technology fully works before they trust it on their power 
system. She explained that it is not necessarily fundamental 
sciences or what I would call early stage R&D, but the fact of 
the matter is we can't operate out of system with technology 
solutions that do not have history. She continued that anybody 
who says the national labs are infringing upon the potential of 
the private sector perhaps doesn't understand the complexity of 
the system we are operating.
    One of the reasons I introduced the Next Generation 
Electric Systems Act last Congress was to support public-
private partnerships to demonstrate how to integrate energy 
storage, rooftop solar and other advanced electric grid 
technologies.
    I do thank the Chair and Ranking Member for including 
Advanced Grid Demonstration grants in their energy bill, and I 
wish the President's budget had the same foresight. My point 
is, Mr. Secretary, we need to support beyond the early stage 
stuff. I hope that you will recognize the continual needs for 
the alternative energy sector.
    Secretary Perry. I do.
    Senator Hirono. Great.
    The Chairman. Okay.
    Thank you, Senator Hirono.
    Senator Smith. Recognizing that we are trying to keep the 
Secretary on time, so we will be very quick.
    Senator Smith. Yes, thank you very much, Madam Chair and 
Mr. Secretary, it is very nice to meet you and thank you for 
being here.
    I am very glad that Senator Hirono asked the question about 
the Energy Efficiency and Renewable Energy Office. I strongly 
support that and appreciate what, I think, was a willingness, I 
hope a willingness, to work with us on getting that budget 
number up to a place that would work much better for my state.
    Secretary Perry. Yes, Senator.
    Senator Smith. I also would just like to quickly note, I 
have a similar request, I will say, on the importance of 
weatherization assistance which is so important in Minnesota.
    The Weatherization Assistance Program has helped. It helped 
seniors stay in their homes. It helped young families afford 
their homes because they can afford energy better when we 
weatherize their houses. It is so important in Minnesota.
    As a former business person, I appreciate that the return 
on investment for this program is good. According to Oak Ridge 
National Lab, we see a $1.72 benefit for every $1.00 that is 
invested in weatherizing homes. Of course, it creates a lot of 
jobs too.
    I just want to ask you, I would really like to work with 
you on this as well and see if we can't find some common ground 
on keeping the Weatherization Assistance Program working well 
for Minnesota and our country?
    Secretary Perry. Yes, Senator. We'll work with you.
    As a Governor, let me just say, I think it's really 
important for the states to play a very important role in that 
arena as well.
    Senator Smith. Yes, I agree with that and our state does 
play an important role and we are looking for a good 
partnership with the Federal Government.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Smith.
    Senator King.
    Senator King. I am going to try to stop at 30 seconds.
    Secretary Perry. Go.
    [Laughter.]
    Governor.
    Senator King. Governor Perry, welcome.
    Secretary Perry. Yes, sir, thank you, Governor.
    Senator King. Or Secretary, you are supposed to be called 
by your highest ever title and Governor----
    Secretary Perry. I'm not going to get into that, sir.
    [Laughter.]
    I'm just glad to be here in any role.
    Senator King. Three quick points.
    Number one, congratulations on the formation of the 
Cybersecurity, Energy Security, and Emergency Response Office. 
Very timely. Very important. I think a great initiative and 
look forward to working with you on it. This is one area of 
huge national vulnerability. The fact that you have created an 
office to focus exclusively on that problem, I think, is 
commendable and I certainly, as I say, look forward to working 
with you on that. That is number one.
    Secretary Perry. Thank you, sir.
    Senator King. Number two is please maintain a focus on 
research. I believe one of the most important things the 
Federal Government can do is do research that isn't necessarily 
going to pay off right away because the commercial sector does 
that very well. But we all know that we would not have 
fracking, would not have the revolution in the price of oil and 
gas that we have but for support for the Department of Energy 
many years ago. We need to be thinking in the future about that 
kind of support for future technologies that we, perhaps, can't 
even imagine now.
    So, research, however it is defined, whichever department 
it is in, I think, is one of the most important functions that 
the Department of Energy can perform. I hope you will continue 
that focus on things like storage, for example, which you have 
characterized as one of the really important parts of the 
energy future of this country. Committed?
    Secretary Perry. Yes, sir. All the way.
    Senator King. And number three, weatherization. It really 
is important. I want to echo my colleague from Minnesota.
    We face situations in Maine where people have to choose 
between medication, heating their home and putting food on the 
table. Weatherization is a great way of avoiding expenditures 
in the future.
    So, please, if the Congress refunds, re-establishes that, I 
hope the Department will continue to actively promote it 
because it is very important to our constituents.
    Secretary Perry. Senator King, the Department is going to 
be a good partner, but more importantly, if having been an 
appropriator in one of my previous lives, having been an agency 
head and then having been a Governor and now the Secretary of 
Energy, I respect this process.
    And if you see fit, this Committee sees fit, Congress sees 
fit to fund particular line items, I give you my solemn oath 
that it will be administered and managed as transparently and 
as successfully as possible.
    Senator King. Mr. Secretary, I cannot ask more than that.
    Thank you very much.
    Secretary Perry. Thank you, sir.
    Senator King. Thank you, Madam Chairman.
    The Chairman. Thank you, Senator King.
    Mr. Secretary, thank you.
    This is well ahead of Senate time. We are one minute over 
your hard stop, so I think we did pretty well.
    I think you heard, sir, the concerns from many about these 
budget category areas. We will be looking critically at them as 
we focus on these important priorities, whether they be 
weatherization, cleanup, cyber, but we appreciate the 
opportunity to work with you and your team.
    Secretary Perry. Senator, thank you and thank you again for 
your thoughtfulness in allowing me to walk out.
    Thank you all for your pleasant experience today.
    [Laughter.]
    The Chairman. Happy to be with you.
    [Laughter.]
    The Committee stands adjourned.
    [Whereupon, at 11:32 a.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------    
                              
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              






</pre></body></html>
